                                                         CLOSEOUT FOR M95090037

                       This case came to OIG on September 8, 1995, when we received an electronic mail
               message from the first complainant.' He alleged that the subject? had misappropriated ideas and
               conclusions from a manuscript? (the other scientists' manuscriptlpaper) that other scientists had
               submitted for publication and had incorporated those ideas and conclusions in a paper of their own
               (the subjects' paper).4 A second complainan? submitted additional, related complaints to OIG
               alleging that the subjects had failed to adequately acknowledge the contributions of others to the
               subjects' research.

                    The research groups with which the subjects and the other scientists were associated were
            engaged in an ongoing scientific dispute over the interpretation of certain experimental
            observations. This dispute, which also involved larger differences in scientific perspectives, had
   -.-
     4
          - occasioned considerable interpersonal animosity prior to the events that generated the allegations
            of misconduct in science that thi complainants brought to OIG. Two general hypotheses had been
            proposed in the literature to explain the observations and, although each group acknowledged that
            the issue was not definitively resolved, each favored a different hypothesis. The other scientists'




                       -
            manuscript purported to resolve the dispute in favor of the other scientists' preferred




                                                          ---
            interpretation. The subjects' paper reached essentially the same conclusion, but did so using the
            subjects' own data, much of it previously published, and the subjects' own analytical approach.




               ' Dr.
                Dr. m
                                  then at -university.

                                    f the -  t     h
                                  second subject), Dr. f
                                 of thehet(-


                                            ?-
                The manuscript was published as "
                                                         e
                                                                           the--first subject), MS.

                                                                         fourth subject).
                                                                                                               of hte-
                                                                                                           (the third subject), and




, J --   -.   /
               W    ~   w     a authored
                                    s    by          -
                                            1994, pages
                                                                                            1                 d appeared in




              w-The paper is entitled '


               award.
                       entit ed "
                                    V       o      o      t    h     o       r
                                                                                                           " It appeared in the
                                                                                   s acknowledgesupport from NSF grant
                                                                             The third and fourth subjffts are the PIS for this


                Dr.    r              the   0

                                                              page 1 of 4
                                                  CLOSEOUT FOR M95090037

                    The f ~ scomplainant
                              t            alleged that there were various indications that the subjects were
            aware of the other scientists' manuscript and had made unacknowledged use of it. Among these
            were (1) documents indicating that the editor of a journal to which the other scientists' manuscript
            had been submitted had sent the subjects a copy of the manuscript to inform the subjects that the
            journal planned to publish a paper critical of the subjects' work, (2) the presence in the subjects'
            paper of an analytical detail that was allegedly previously absent in the subjects' work, present in
            the other scientists' manuscript, and not intrinsically related to the subjects' data, and (3) evidence
            that the previously unpublished data analyses in the subjects' paper could have been performed
            between the time the subjects received the manuscript and the time they submitted their paper for
            publication.

                    The subjects had appended a "note added in proof" to their paper that characterized the
            other sciedtists' paper as appearing while the subjects' paper was under rehew and containing
            similar experimental results. The note gives no indication that the subjects had seen the other
            scientists' paper while the subjects' paper was in preparation or that the subjects made use of the
            other scientists' paper in preparing their own.

                     OIG determined that an investigation into the complainants' allegations was warranted!
         . Because it appeared that the timing of the subjects' experimental research, analytic work, and
           manuscript preparation were potentially important in determining whether misconduct had
--
 4
         - occurred, OIG decided that it was necessary to secure the subjects' laboratory records in order to
     ,     make certain that the subjects had no opportunity to alter these records before or during the
           investigation. We informed the awardee university7(the university) of the allegations, and the
           university asked OIG to suspend independent investigative activity so that it could complete its
           own investigation. The university secured relevant records on its own campus, and it arranged
           with the institution to which the first subject had m o v d to secure records in the first subject's
           possession. In accordance with its own procedures for handling allegations of misconduct in
           science, the awardee university first performed an inquiry and concluded that the allegations of
           misconduct lacked substance and that no misconduct had occurred. In reviewing the inquiry
           report, OIG noted that the committee had reached its conclusions without considering certain
           relevant evidence, including the subjects' laboratory records.

                   OIG informed the university that OIG continued to believe that a thorough investigation
            was necessary, and the university decided to appoint an investigation committee to consider the
            matter de novo. The investigation committee included a technical expert from outside the




                    - -
              The complainants also made numerous allegations of poor citation practices and uncollegial behavior by
 .          members of the subjects' research group. Insofar as OIG concluded, during its own inquiry, that none of these
            alleged transgressions was sufficiently serious to be considered misconduct in science, OIG did not refer these
            allegations to the university's investigation committee. In one instance, such an allegation was made after we had
            referred the case to the university for investigation. In that instance, the university inquiry committee concluded
            that the allegation lacked substance, and OIG concurred.

            ' The                            was the awardee for NSF grant




                                                         page 2 of 4
                                       CLOSEOUT FOR M95090037

matter de novo. The investigation committee included a technical expert from outside the
university. The committee collected the evidence and concluded that the subjects did not commit
misconduct. OIG's review of the investigation report indicated that the committee did not address
certain significant evidence, contained in an appendix to its report, that seemed to contradict one
of the report's major factual conclusions. In response to OIG's query, the committee clarified its
account of the events in light of this evidence and reaffirmed its view that no misconduct had
occurred.

         On the basis of the evidence collected by the university, OIG concluded that

    before the subjects received the other scientists' manuscript, the subjects had done the
    experimental work that, in their view, was essential to interpreting the observations whose
    significance was in dispute;
    this work, and not the evidence or conclusions in the other scientists' manuscript, caused the
    subjects to conclude that the interpretationthey espoused in their paper was warranted;
    not all of the subjects had realized the implications of this experimental work until the receipt
    of the other scientists' manuscript spurred them to subject their own data to closer
    examination and analysis; and
    the subjects' paper was written after they received the other scientists' paper.

The university reached similar conclusions.

        OIG accepted the university's conclusion that the only significant analytic work done after
receipt of the other scientists' manuscript was a logical outgrowth of the subjects' prior
experimental work and caused the subjects to take "a step away from" the specific interpretive
schema proposed by the other scientists. OIG also accepted the university's conclusion that the
subjects did not use the other scientists' manuscript except as a spur to prompt them to accelerate
the process of fully analyzing their data and preparing it for publication.

        The university concluded that, in view of its hctual findings, the subjects had not
misrepresented the use they made of the other scientists' manuscript. The university further
concluded that, while the subjects might have made clear that their paper was written after they
had received the other scientists' manuscript, their failure to do so could not be considered a
sufficiently serious transgression to be misconduct in science?

        OIG presented an account of its factual conclusions in this case to a scientist
knowledgeable about the ethical norms governing the community in which the subjects and the
other scientists work. This scientist concurred with the university that the subjects had not
committed misconduct in science.

  Information in the investigation report indicates that decisions about how to reference the other scientists' paper
were made by the third and fourth subjects. The role of the second subject, who was the most junior member of
the research team, was limited to re-running earlier.experiments to put the subjects' data into publishable form.
There is no evidence that the second subject did anything that could be considered improper, let alone anything
that might be considered misconduct in science.


                                               page 3 of 4                                      M95-37
                                CLOSEOUT FOR M95090037

       On the basis of the judgments of the university and the other scientist and OIG7sown
familiarity with the ethical standards of the scientific community, OIG concluded that the subjects
had not committed misconduct.

       This investigation is closed and no further action will be taken on this case.

cc: Integrity, IG




                                       page 4 of 4
